<html>
<title> - MARKUP OF H. CON. RES. 232, EXPRESSING THE SENSE OF CONGRESS CONCERNING THE SAFETY AND WELL-BEING OF UNITED STATES CITIZENS INJURED WHILE TRAVELLING IN MEXICO</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]


 
MARKUP OF H. CON. RES. 232, EXPRESSING THE SENSE OF CONGRESS CONCERNING 
   THE SAFETY AND WELL-BEING OF UNITED STATES CITIZENS INJURED WHILE 
                          TRAVELLING IN MEXICO

=======================================================================

                                 MARKUP

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, JUNE 14, 2000

                               __________

                           Serial No. 106-128

                               __________

    Printed for the use of the Committee on International Relations


 Available via the World Wide Web: http://www.house.gov/international 
                               relations

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
65-872                     WASHINGTON : 2000

                                 ______


                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                 Subcommittee on The Western Hemisphere

                  ELTON GALLEGLY, California, Chairman
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
CASS BALLENGER, North Carolina       MATTHEW G. MARTINEZ, California
CHRISTOPHER H. SMITH, New Jersey     ROBERT MENENDEZ, New Jersey
ILEANA ROS-LEHTINEN, Florida         ROBERT WEXLER, Florida
MARSHALL ``MARK'' SANFORD, South     STEVEN R. ROTHMAN, New Jersey
    Carolina                         JIM DAVIS, Florida
KEVIN BRADY, Texas                   EARL POMEROY, North Dakota
PAUL E. GILLMOR, Ohio
               Vince Morelli, Subcommittee Staff Director
           David Adams, Democratic Professional Staff Member
                    Kelly McDonald, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                APPENDIX

H. Con. Res. 232.................................................     6
Amendment to H. Con. Res. 232 Offered by Mr. Gallegly............     8


MARKUP OF H. CON. RES. 232, EXPRESSING THE SENSE OF CONGRESS CONCERNING 
   THE SAFETY AND WELL-BEING OF UNITED STATES CITIZENS INJURED WHILE 
                          TRAVELLING IN MEXICO

                              ----------                              


                        Wednesday, June 14, 2000

                  House of Representatives,
                Subcommittee on Western Hemisphere,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2 p.m. In Room 
2172, Rayburn House Office Building, Hon. Elton Gallegly 
(Chairman of the Subcommittee) presiding.
    Mr. Gallegly. Call to order the Subcommittee on the Western 
Hemisphere.
    The first order of business for the Subcommittee will be 
the consideration of legislation introduced by our colleague 
from California, Congressman Duncan Hunter. Will the clerk 
please report the bill?
    The Clerk. House Concurrent Resolution 232----
    Mr. Gallegly. I ask unanimous consent that the bill be 
considered as read and open for amendment at any point.
    [The information referred to appears in the appendix.]
    Mr. Gallegly. House Concurrent Resolution 232 is the result 
of several unfortunate incidents involving a conflict between 
Mexican law enforcement and sound medical treatment provided to 
U.S. as well as other foreign citizens while traveling in 
Mexico.
    Last August, California resident Donald Craft, his wife and 
his three children were vacationing in Baja, Mexico, when they 
were involved in a serious automobile accident. Mr. Craft broke 
his neck and was in critical condition when he was taken to a 
local Mexican hospital where doctors advised his family that he 
be immediately sent to a trauma center in San Diego for more 
intensive medical care.
    There was, however, one problem. Under Mexican law, 
foreigners involved in traffic accidents that are being 
investigated for possible criminal action cannot leave Mexico 
until they post a bond.
    Mrs. Craft was required to pay $7,000 before her critically 
injured husband would be allowed to leave the country. After 
what must have been an excruciating 18 hours, the money was 
provided; and Mr. Craft was finally sent back to the United 
States.
    Regrettably, on September 6th, Mr. Craft died of 
complications associated with that accident.
    Ironically, this tragedy has been repeated on several 
occasions since Mr. Craft's death, including a case involving a 
constituent of our colleague from Miami, Ms. Ros-Lehtinen.
    Now, we understand that Mexico has its own laws and 
procedures which should be known and respected. However, in 
these kinds of cases, flexibility ought to be the order.
    Since the Craft incident, I am told that the U.S. and 
Mexican governments have begun a dialogue on how to address 
this issue. H. Con. Res. 232 is designed to support those 
efforts to seek a reasonable solution to a situation which 
places the health and well-being of Americans and other foreign 
visitors to Mexico in question. The State Department has been 
consulted on the legislation and has no objection. I urge my 
colleagues to pass the legislation.
    Are there other Members present who wish to make a 
ststement?
    The gentlelady from Miami, Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Every year, thousands of people leave the Port of Miami on 
cruise ships that take them to foreign lands. Yet many tourists 
never consider what they would do if they found themselves in 
an emergency situation abroad. What was supposed to be a 
peaceful vacation cruise to Mexico for a couple in my 
congressional district turned out to be a nightmare that 
continues to haunt Michael and Lorraine Andrews still today.
    Fifteen minutes before their ship departed from one of the 
ports, Michael and Lorraine's car went off the road, causing a 
tragic accident that would change their lives forever. With no 
passport, no money and no real means of identification, 
Lorraine Andrews became frustrated in trying to deal with 
Mexican authorities to get the medical assistance for her 
husband, who had lost sensation below his neck.
    After an hour and a half, an air bus arrived; and while 
Lorraine and Michael thought everyone was on track to get them 
out safely, Mexican authorities refused to let go of the 
stretcher that Michael was on. It became evident that an 
exchange had to occur. Michael's stretcher was only released 
after the plane's co-pilot dropped American dollars on the 
tarmac, forcing Mexican authorities to scurry for them.
    Today, Michael is a complete quadriplegic; and although he 
and his wife are facing serious financial problems as a result 
of this tragedy, they are working to make a difference so that 
others do not experience similar difficulties.
    Like the Andrews family, many American tourists who travel 
abroad are forced to bribe foreign authorities for assistance 
even when in dire need of medical help. For some who are in 
need of medical attention when it was most needed, vacations 
have turned out to be fatal.
    Mr. Chairman, with the close relationship shared by Mexico 
and the United States, our citizens should not have to fear 
Mexican authorities and law enforcers who are trained to 
protect and save lives when vacationing in Mexico. House 
Concurrent Resolution 232 expressing the concern of Congress 
concerning the safety and well-being of United States citizens 
injured while traveling in Mexico is a step in the right 
direction to secure safety for our citizens and to raise 
awareness on ways in which they can better protect themselves.
    The safety of our citizens must come first, and our 
President must immediately begin negotiations with the 
government of Mexico to establish a humanitarian exemption to 
Mexican bond requirements. No American life should be 
endangered because Mexican law requires that an investigation 
of an accident must first be conducted. No American should be 
denied the right to travel when necessary for emergency medical 
assistance because a release bond must be paid up front. 
Humanitarian consideration should be allowed to supercede any 
regulatory bond that may delay an American's departure to 
proper medical care so that emergencies like that of Michael 
and Lorraine Andrews will be prevented in the future.
    Mr. Chairman, I strongly support this concurrent resolution 
and ask that my colleagues look favorably on it and vote for 
its passage. Thank you, Mr. Chairman.
    Mr. Gallegly. I thank the gentlelady from Florida.
    Are there any other statements?
    If not, the Chair has an amendment to offer. Would the 
clerk please report?
    The Clerk. An amendment offered by Chairman Gallegly----
    Mr. Gallegly. I ask by unanimous consent the amendment be 
considered as read.
    [The information referred to appears in the appendix.]
    Mr. Gallegly. The amendment which I offer simply amends the 
resolve clause to reflect the fact that negotiations between 
the United States and Mexico have actually begun and should be 
continued until acceptable resolution of this problem can be 
achieved.
    If there is no further discussion, the question is on the 
amendment offered by the Chair. All those in favor, say aye. 
All opposed, say no.
    The ayes have it, and the amendment is agreed to.
    The clerk will report the bill as amended.
    The Clerk. House Concurrent Resolution 232----
    Mr. Gallegly. The question is on passage of the bill as 
amended. All those in favor, say aye. Opposed.
    The ayes have it, and the bill as amended is passed and 
referred to the Full Committee for consideration.
    That closes the markup portion.
    [Whereupon, at 2:14 p.m., the Subcommittee proceeded to 
other business.]
      
=======================================================================




                            A P P E N D I X

                             June 14, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T5872.001
    
    [GRAPHIC] [TIFF OMITTED] T5872.002
    
    [GRAPHIC] [TIFF OMITTED] T5872.003
    
                                  <all>
</pre></body></html>
